No.

IN THE SUPREME COURT
OF THE UNITED STATES

United States,

Respondent,

v.
Wilmar Rene Duran Gomez,

Petitioner.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
Motion to Proceed In Forma Pauperis

Cullen Macbeth
Assistant Federal Public Defender
Office of the Federal Public Defender
6411 Ivy Lane, Suite 710
Greenbelt, MD 20770
(301) 344-0600
cullen macbeth@fd.org

Petitioner Wilmar Rene Duran Gomez respectfully requests leave to file a petition
for a writ of certiorari without prepayment of costs and to proceed in forma pauperis.
Appellate counsel was appointed under 18 U.S.C. ยง 3006A by the U.S. District Court for
the Southern District of Texas. In light of this prior appointment, no affidavit or
declaration of petitioner is attached. See S. Ct. R. 39.1.
For the foregoing reasons, the motion to proceed in forma pauperis should be
granted.

Respectfully Submitted,
Cullen Macbeth
Assistant Federal Public Defender
Office of the Federal Public Defender
6411 Ivy Lane, Suite 710
Greenbelt, MD 20770
(301) 344-0600
cullen_macbeth@fd.org

Dated: May 3, 2021

